U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 27, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jackson v. Braithwaite, No. 20-19
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 10, 2020.
The government’s response is now due, after one extension, on September 14, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 16, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0019
JACKSON, GARY L.
KENNETH J. BRAITHWAITE, SECRETARY OF THE
NAVY

KAVERI ARORA
PRYOR CASHMAN LLP
7 TIMES SQUARE
NEW YORK, NY 10036-6569
212-326-0453
KARORA@PRYORCASHMAN.COM
212-515-6954(Fax)
BOYD GARRIOTT
WILEY REIN LLP
1776 K STREET, NW
WASHINGTON, DC 20006
202-719-4487
BGARRIOTT@WILEY.LAW
ANTHONY F. SHELLEY
MILLER & CHEVALIER
900 SIXTEENTH ST., NW
WASHINGTON, DC 20006
202-626-5800
ASHELLY@MILCHEV.COM
RICHARD A. SIMPSON
WILEY REIN LLP
1776 K STREET, N.W.
WASHINGTON, DC 20006
202-719-7000
RSIMPSON@WILEYREIN.COM

